DOE/IG-0532




        AUDIT                 PROGRESS OF THE SPALLATION
       REPORT                  NEUTRON SOURCE PROJECT




                                      NOVEMBER 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                             DEPARTMENT OF ENERGY
                                Washington, DC 20585

                                     November 19, 2001

MEMORANDUM FOR THE SECRETARY

FROM:              Gregory H. Friedman (Signed)
                   Inspector General

SUBJECT:           INFORMATION: Audit Report on "Progress of the Spallation
                   Neutron Source Project"

BACKGROUND

When completed, the Spallation Neutron Source (SNS) will be the world's foremost
neutron-scattering facility. It will be an important scientific tool for basic research in
materials science, life sciences, chemistry, solid state and nuclear physics, earth and
environmental sciences, and engineering sciences. Approximately 1,000 to 2,000 users
are expected to conduct research at the SNS facility each year. The facility is being built
in Oak Ridge, Tennessee, as a partnership among six of the Department of Energy's
national laboratories. The $1.4 billion project, currently under construction, is scheduled
for completion in June 2006.

Historically, schedule delays, cost overruns, and other management problems have
plagued the Department's projects. Since the early 1990s, the Office of Inspector General
has issued many reports critical of the Department's project management practices. To its
credit, the Department recently began a series of project management reforms to address
some of its long-standing problems. For example, to increase corporate oversight of the
Department's projects, the Office of Engineering and Construction Management and
project management support offices were established for the Office of Science, the Office
of Defense Programs, and the Office of Environmental Management. Additionally, the
Department established a new project management tracking and control system, a Chief
Operating Officer's "Watch List" for troubled projects, and a new project management
organization within the Office of Management, Budget and Evaluation. The
Department's emphasis on project management was highlighted in a September 19, 2001,
memorandum on this subject from the Deputy Secretary to the heads of headquarters
elements. While we are encouraged by these steps, we believe that project management
remains one of the Department's key challenges.

The objective of this audit was to determine whether the SNS Project was within
technical scope, cost, and schedule.

RESULTS OF AUDIT

We determined that the SNS Project's technical scope was reduced to allow the cost and
schedule components to be met. Contrary to original commitments, in June 2006, the
anticipated completion date, the SNS Project will not:
                                       -2-




        •       Have instruments to address all of the initially planned areas of science;
        •       Provide complete user facilities; and,
        •       Possess critical spare parts and equipment.

MANAGEMENT REACTION

The Office of Science disagreed with the audit finding and recommendations, and
requested that the Office of Inspector General include its comments verbatim. We have
done so, and also included our response to those comments, which may be found on
pages 16 to 33.

It is important to emphasize that the Office of Inspector General recognizes the value of
this facility to the Department and to the science community. We agree that once
completed, as initially promised, the SNS may well be the best facility of its kind in the
world. However, our concern is that as a result of the scope reductions made to the
project at this stage, the facility will not deliver all of the intended leading-edge user
facilities and capabilities nor cover all areas of science anticipated to meet the needs of
the scientific community.

We also believe that the status of the SNS Project should be transparent to all interested
parties. Specifically, the current Project Data Sheet, used to keep the Congress informed,
should more realistically reflect the current plan for the project. As stated in the audit
report, the Project Data Sheet does not include information that we believe to be critically
important, such as the fact that only five of ten instruments originally planned are
currently funded, and only three will be installed by June 2006. Nor does it state that
operating funds will be used to install the other two instruments in lieu of project funds.
Finally, the Project Data Sheet is substantively inconsistent with the Office of Science's
own SNS report, which states that the instruments will be barely acceptable for user
operation and will span many, but not all, of the scientific areas originally addressed.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Acting Director, Office of Science
    Office of Management, Budget and Evaluation/CFO
    Principal Deputy Director, Office of Engineering and Construction Management
PROGRESS OF THE SPALLATION NEUTRON SOURCE PROJECT


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations.................................................. 2


                 Technical Scope Reductions

                 Details of Finding .......................................................................3

                 Recommendations and Comments .........................................11


                 Appendices

                 Scope and Methodology...........................................................14

                 Related Reviews ......................................................................15

                 Additional Management and Auditor Comments ......................16

                 Management Response ...........................................................29
OVERVIEW


INTRODUCTION AND   The purpose of the Spallation Neutron Source (SNS) Project is to
OBJECTIVE          provide a next-generation spallation neutron source for neutron
                   scattering and related research in broad areas of physical, chemical,
                   materials, biological, and medical sciences. The $1.4 billion project,
                   currently under construction, was about 22 percent complete as of
                   May 2001. The construction phase is scheduled for completion in
                   June 2006. At that point, the research operations phase will begin with
                   approximately two years of commissioning activities, which will
                   include ramping up the intensity of the beam and testing the reliability
                   of the research instruments. The annual post-construction operations
                   budget is estimated at $150 million for the next 40 years.
                   Approximately 1,000 to 2,000 users are expected to conduct research at
                   the SNS facility each year. Fiscal Year 2001 funding for the project
                   was about $278 million.

                   The SNS Project is being carried out as a multi-laboratory partnership,
                   led by the SNS Project Office in Oak Ridge, Tennessee. A total of six
                   Department laboratories are involved in various aspects of the SNS
                   Project's design and construction. Oak Ridge National Laboratory
                   (ORNL) is responsible for the design and construction of the liquid
                   mercury target as well as for managing the overall project. Lawrence
                   Berkeley National Laboratory is responsible for the front-end system,
                   which includes an ion source, beam formation and control hardware,
                   and low-energy beam transport and acceleration systems. Los Alamos
                   National Laboratory is responsible for the linear accelerator, which
                   continues the ion beam acceleration. Thomas Jefferson National
                   Accelerator Facility is responsible for the superconducting cavities,
                   which provide the remainder of the beam acceleration. Brookhaven
                   National Laboratory is responsible for the accumulator ring structure,
                   which bunches and intensifies the ion beam for delivery onto the
                   mercury target to produce the neutron beams. Finally, Argonne
                   National Laboratory is responsible for developing the neutron-
                   scattering instrumentation and for working closely with ORNL to
                   develop the experiment facilities.

                   In October 2000, the Department's Office of Science conducted its
                   semi-annual review of the SNS Project's performance. The results of
                   the review, issued in February 2001, stated that the architect engineer's
                   initial Title I cost estimate of $380 million for conventional facilities
                   exceeded the baseline by approximately $80 million. Conventional
                   facilities include user facilities such as offices, laboratories, an
                   auditorium, the cafeteria, and workshops that are required for the



Page 1                                                         Introduction and Objective
                  operation of the SNS facility. In addition, the potential uses of the SNS
                  Project's contingency fund were much greater than originally estimated.
                  Accordingly, SNS Project management was challenged to identify cost
                  reduction measures to address these issues. The actions SNS Project
                  management developed to address the potential cost growth led to our
                  audit.

                  The objective of this audit was to determine whether the SNS Project
                  was within technical scope, cost, and schedule.

                  The SNS Project's technical scope was reduced to allow the cost and
CONCLUSIONS AND
                  schedule components to be met. Specifically, the July 2001 baseline did
OBSERVATIONS
                  not provide for instruments to address the initially planned areas of
                  science, complete user facilities, and critical spare parts to be available at
                  the end of the construction project. This condition existed because the
                  Department decided to meet the approved budget rather than ask
                  Congress for additional funding. As a result of the scope reductions
                  made to the project at this early stage, the SNS facility will not provide
                  all of the intended leading-edge user facilities and capabilities to meet
                  the needs of the scientific community at the end of the construction
                  project. Also, the reliability of the SNS facility could be jeopardized.

                  The Office of Inspector General (OIG) recognizes that when completed
                  as initially planned, the SNS may well be the best facility of its kind in
                  the world. However, our concern is that as a result of the scope
                  reductions made to date, it will not deliver all of the intended lending-
                  edge user facilities and capabilities.

                  The current audit identified issues that management should consider
                  when preparing its yearend assurance memorandum on internal controls.



                                                                  Signed
                                                         Office of Inspector General




Page 2                                                     Conclusions and Observations
TECHNICAL SCOPE REDUCTIONS


Technical Scope Was    The SNS Project's technical scope was reduced to allow the cost and
Reduced to Meet Cost   schedule components to be met. Specifically, the project was not on
and Schedule           track to provide instruments to address the initially planned areas of
                       science, complete user facilities, and critical spare parts in June 2006.

                                                      Instruments

                       The instruments currently funded by the SNS Project will not address
                       all of the initially planned areas of science, which were anticipated to be
                       the most important for the facility. Specifically, the SNS Project has
                       not funded any instruments for higher-energy dynamical studies.
                       Instead, the Department plans to rely on groups external to the project
                       to cover this area of science. According to Department officials, the
                       instruments provided by the external groups will be funded through
                       grants awarded by the Department's Office of Basic Energy Sciences to
                       Pennsylvania State University and California Institute of Technology.
                       Finally, the instruments funded by the SNS Project will not optimally
                       address the following areas of science: atomic structures of single-
                       crystal samples; internal stress and texture in engineering samples; and
                       atomic-scale structures in liquids and amorphous materials.

                       Further, the initial suite of ten planned instruments will not be in place
                       by June 2006. In fact, only five of the ten instruments have been
                       funded, and only three of the five instruments are planned for complete
                       installation by June 2006. Also, the three instruments that will be
                       installed will lack certain capabilities because management decided to
                       defer the procurement of analyzer crystals, detectors, and polarizing
                       optics to the operations phase of the project. The Office of Science's
                       May 2001 reviewers stated that "in their present configuration, these
                       instruments will be barely acceptable for user operation."

                       In response to our draft report, management contended that the
                       currently baselined instruments would be fully functional with
                       performance that greatly exceeds that expected at the time the project
                       was first approved. Specifically, management stated that the baselined
                       instruments had been benchmarked against the best in the world.
                       Management also contended that the initial suite of ten instruments was
                       always described as a reference suite of instruments with the explicit
                       statement that the final instrument selection would be made through
                       consultation with the scientific community based on recommendations
                       from expert advisory committees. Initially, this was reflected in the
                       Project Data Sheet, sent to Congress to request funding, with the
                       statement that the project would provide "approximately 10
                       instruments." The most recent Project Data Sheet, which has been

Page 3                                                                        Details of Finding
         approved by both the House and the Senate, refers to "fewer than 10
         instruments" to reflect management's decision to emphasize the
         quality of instruments over their quantity.

         We recognize that the currently funded instruments may outperform
         those available at the time the project was first approved. However,
         project funding included the estimated costs to build an initial suite
         of ten instruments and the associated research and development to
         design state-of-the-art components. The quantity and types of
         instruments were documented in the SNS Conceptual Design Report,
         which was validated by the Office of Energy Research in June 1997,
         and was an integral part of the basis for baseline approval in
         December 1997. Until April 2001, the baseline required that an
         initial suite of ten instruments would be funded.

         Also, management stated that the decision to install five high-
         performance instruments rather than an initial suite of ten was due to
         advice from the scientific community. Our review disclosed that,
         while management obtained input from the user community in
         selecting the five instruments to be provided, the decision to provide
         only five instruments was based on budgetary constraints—not
         advice from the scientific community. In fact, the Office of Science
         October 2000 and May 2001 reviews showed that, due to budget
         constraints, project requirements were revised to require only five
         instruments to be funded, three of which would be installed. Also,
         the Office of Science recommended that management find savings
         throughout the project to restore the full scientific scope of ten best-
         in-class instruments to the extent possible. Further, the reviews
         stated that until the instruments are upgraded, they would not be the
         best-in-class instruments that were promised, and would not cover all
         of the areas of science originally planned.

         Finally, we believe that the current Project Data Sheet should more
         realistically reflect the current plan for the project. For example, in
         the Project Data Sheet, the Department states that fewer than ten
         instruments will be provided, and there will be "no sacrifice in
         scientific capability" as a result of fewer instruments. The Project
         Data Sheet does not include information which we believe to be
         critically important, such as that only five instruments are currently
         funded and only three will be installed by June 2006. Nor does it
         state that operations funds will be used to install the other two
         instruments in lieu of project funds. Further, the Project Data Sheet
         is substantively inconsistent with the Office of Science's own report


Page 4                                                       Details of Finding
         which states that the instruments would be barely acceptable for user
         operation and will span many, but not all, of the scientific areas
         originally addressed.

                                     User Facilities

         The Department also reduced or eliminated some of the user
         facilities from the SNS Project. For instance, the Central Laboratory
         and Office Building, which was designed to be the main user facility,
         has undergone significant scope reductions. The reductions included
         eliminating the fifth floor conference area and leaving the
         auditorium, gallery, cafeteria, and second floor laboratories
         unfinished. By June 2006, these facilities will be structurally
         complete, but they will not be functional. Project officials stated that
         the facilities would be "uninhabitable," lacking drywall, lighting,
         heating, and air conditioning.

         In response to the draft report, management stated that while the
         Central Laboratory and Office Building provides for future inclusion
         of an auditorium and cafeteria space, which are desirable
         enhancements, those facilities are not requirements for the operation
         of the facility or its scientific program. Also, management stated that
         the SNS baseline for user facilities contains all of the technical scope
         required to support operation of the scientific user program
         associated with the initial instrument suite. However, according to
         the Central Laboratory and Office Building scope of work, the
         auditorium and cafeteria are necessary to operate the SNS facility.
         Additionally, the Office of Science's May 2001 review determined
         that the lack of those facilities might prove to be an "unacceptable
         loss of functionality." Finally, funding for laboratories and
         equipment associated with the ten initially planned instruments was
         included in the total project cost.

                              Spare Parts and Equipment

         Further, the Department eliminated some of the SNS Project's critical
         spare parts and equipment from the baseline. In fact, all spare parts
         for the target system were eliminated. Some of the spare parts were
         reported as presenting a high technical or schedule risk since they
         require long procurement lead-times. For example, it would take
         12 months to replace the target's inner plug system. Several other
         parts would require procurement lead-times from three to six
         months. Additionally, equipment for a facility designed to maintain
         and repair the linear accelerator cryomodules was eliminated from
         the project's construction phase.


Page 5                                                       Details of Finding
                         Management stated that the decision to reduce the spare parts
                         inventory was based on an assessment of risk, incorporating input
                         from advisory and review committees. Also, management stated that
                         elimination of the spare parts would have no impact on the reliability
                         or budget for the operating facility. Finally, management stated that
                         the facility for the maintenance of linear accelerator cryomodules is
                         not required for reliable facility operation since the capabilities are
                         available off-site.

                         We disagree with management's contention that the spare parts and
                         equipment were removed from the baseline, based on a risk
                         assessment, with no impact on the reliability or budget for the
                         operating facility. According to the October 2000 Office of Science
                         report, the spare parts and equipment were removed from the
                         baseline to ensure that the project remained within the approved
                         project cost. The reviewers recommended that the spare parts be
                         purchased during the early stages of operations. Also, while
                         capabilities for maintenance and repair of the linear accelerator
                         cryomodules will be available off-site, the facility is required to
                         operate with minimal downtime due to the short duration of user
                         visits. The downtime will not be minimal if equipment has to be sent
                         off-site for maintenance and repair. Further, Departmental policy
                         states that an initial complement of spare parts is to be included in
                         the total project cost, and facilities should be furnished to make them
                         operable per their original intent.

Baseline Defined the     The Project Execution Plan defines the specific requirements that
Technical Scope, Cost,   form the project baseline. The Department approved the SNS
and Schedule of the      Project baseline in December 1997. The SNS Conceptual Design
Project                  Report, which was part of the basis for baseline approval in
                         December 1997, stated that project funding included the estimated
                         cost to build an initial suite of ten instruments and the associated
                         research and development to design state-of-the-art components.
                         The ten initially planned instruments covered the areas and types of
                         science anticipated to be the most important for neutron-scattering
                         research experiments. The instruments were to be installed and
                         ready for commissioning at the time the proton beam is turned on in
                         June 2006. The SNS Project Design Manual, which was derived
                         from the SNS Conceptual Design Report, listed additional user
                         requirements such as offices, laboratories, conference rooms, an
                         auditorium, and a cafeteria. Project requirements also include
                         critical spare parts to ensure beam reliability and availability.




Page 6                                                                      Details of Finding
                          Until April 2001, the SNS Project baseline stated that the
                          Department would construct an accelerator-based neutron-scattering
                          facility, capable of delivering at least one megawatt of proton beam
                          power on target. The facility was to include an initial suite of ten
                          state-of-the-art instruments. In addition, the Central Laboratory and
                          Office Building was to provide the office, laboratory, conference,
                          food service, and shop space necessary to operate the SNS facility.

                          The SNS Project baseline was revised in April 2001, due to budget
                          constraints, to fund only five instruments, three of which would be
                          installed by June 2006. Also, certain user facilities were eliminated
                          or descoped. Finally, critical spare parts and maintenance and repair
                          equipment were deleted from the baseline. To reflect these changes,
                          management submitted a Project Data Sheet that stated fewer than
                          ten instruments would be provided with "no sacrifice in scientific
                          capability."

                          The SNS Project's technical scope was reduced to allow the cost and
Technical Scope Was       schedule components to be met. This occurred because the
Reduced Rather Than Ask   Department decided to meet the approved budget rather than ask
For Additional Funding    Congress for additional funds. The Department could have adjusted
                          the total project cost when it determined that the amounts estimated
                          for instruments and user facilities were understated and
                          enhancements were made for the project. Instead, the Department
                          reduced the technical scope to provide fewer instruments, leave some
                          of the user facilities unfinished, and eliminate spare parts.

                                        Estimate for Instruments Was Understated

                          The Department did not adjust the total project cost to account for
                          underestimates in instrument costs. The Department estimated in
                          May 1997 that the initial ten instruments would cost about
                          $55 million, which includes costs for construction as well as research
                          and development. A review of the estimate performed by the
                          Department's Office of Energy Research in June 1997 determined
                          that the instruments would cost an additional $40 million. An
                          internal assessment conducted in March 1999 also found that the
                          instrument budget was too low and recommended increasing the
                          budget by $40 million. In response, the Department increased the
                          instrument budget to about $116 million in July 1999 by transferring
                          funds from other areas of the project. Finally, in March 2001, the
                          instrument budget was reduced to about $79 million to make more




Page 7                                                                      Details of Finding
         funds available for the project's contingency fund. As a result, the
         technical scope of instruments to be installed in June 2006 was
         reduced to stay within the revised budget.

         Management did not agree that the cost estimate for instruments was
         understated. Instead, management contended that the original
         estimate was overtaken by subsequent advances in instrument
         technology and an explicit decision to emphasize quality over mere
         quantity. We agree that the cost of state-of-the-art instruments
         increased significantly in recent years, and we recognize the
         difficulty in estimating future costs of technological advances.
         However, the reductions in the number of instruments and their
         capabilities were due to budget constraints—not an increase in overall
         quality.

                     Estimate for User Facilities Was Understated

         Also, the Department did not adjust the total project cost to account
         for underestimates in the cost of user facilities. The June 1997
         Office of Energy Research review determined that the amount of
         space planned for user facilities may be inadequate. In particular,
         concerns were raised about the amount of space available for offices,
         instrument storage, long-term laboratory projects, ancillary
         equipment development, off-line testing, and maintenance. In
         response, SNS Project management undertook a detailed study to
         identify the amounts and types of space required for potential users.
         This study resulted in approximately 100,000 square feet of space
         being added to the planned facility. However, project costs were not
         increased to account for the added space.

         Management agreed that the initial provision for support space was
         underestimated. However, it stated that the increase in space was
         accomplished through more efficient and cost-effective execution of
         the project. Our review, on the other hand, showed that other areas
         of the project, particularly instruments and spare parts, were
         adversely affected.

             Facility Enhancements Were Made With Contingency Funds

         Further, the Department did not adjust the total project cost when the
         decision was made to enhance the SNS facility. For example,
         management decided to enhance the project by building a
         superconducting linear accelerator capable of achieving higher beam


Page 8                                                      Details of Finding
         power and improving beam flexibility and reliability without
         requiring major additional funding at some point in the future.
         Additionally, the ring and the target system were modified to handle
         a higher energy source and improve their capabilities. These
         enhancements, totaling $54.7 million, were funded from the project's
         contingency fund which, in turn, resulted in reductions in instrument
         capabilities, descoped user facilities, and elimination of spare parts
         and equipment.

         In October 2000, the Department's Office of Science determined that
         the SNS Project's contingency fund had been used faster than
         originally anticipated. Accordingly, SNS Project management was
         directed to maintain the balance of the contingency fund at an
         adequate level. The contingency fund at that point was 20 percent of
         the total estimated cost to complete the project. The Office of
         Science was concerned that if all pending project change requests
         were approved, the contingency fund would fall to a dangerously low
         level of less than 10 percent. Accordingly, SNS Project management
         made scope reductions throughout the project to generate additional
         contingency funds. These actions included reducing the instrument
         budget, deleting the Central Laboratory and Office Building in its
         entirety and then adding it back without essential functions, and
         removing all of the target system spare parts as well as the linear
         accelerator cryomodule repair equipment from the baseline. The
         Office of Science considers the contingency level of about
         25 percent, as of April 2001, to be adequate. It should be noted,
         however, that this contingency level was obtained at the expense of
         the project's technical requirements.

         SNS Project management stated that they plan to use the contingency
         fund to acquire additional instruments, finish the Central Laboratory
         and Office Building, and procure critical spare parts and equipment
         if the money is available at the end of the project. Otherwise, they
         plan to use operating funds to acquire the items after the June 2006
         completion date. However, Departmental guidance states that
         contingency funds are not to be used as a "slush fund" and should not
         be used to avoid making an accurate assessment of expected costs.
         The contingency fund is supposed to be reserved for unforeseen and
         unpredictable conditions or uncertainties that may develop during the
         life of the project. In this case, management knew the total project
         cost was understated and decided to use the contingency fund rather
         than adjust the total project cost. We are concerned that this course
         of action could result in even greater reductions in the project's


Page 9                                                     Details of Finding
                           technical scope between now and June 2006, as more unforeseen and
                           unpredictable conditions develop. Further, Federal regulations and
                           Departmental guidance prohibit the use of post-construction
                           operating funds to finish line item construction projects.

                           Management stated that delivering maximum scientific performance
                           within the approved budget was consistent with its responsibility for
                           stewardship of public funds. It also stated that using contingency
                           funds for project enhancements was an accepted part of value
                           engineering. Further, management reported that the technical
                           performance of the accelerator, the scope of conventional facilities,
                           and the performance of instruments had all been increased as a result
                           of design improvements and cost savings.

                           We agree that management should deliver maximum scientific
                           performance within the approved budget using techniques such as
                           value engineering. However, our review showed that the
                           enhancements and current contingency level were obtained at the
                           expense of the project's technical requirements. Departmental
                           guidance allows for adjusting the baseline for bona fide changes such
                           as substantial increases in capabilities or functions. However, the
                           total project cost was not adjusted to reflect the enhancements.

                           We understand the Department's concern over requesting additional
                           money for this project. However, the justification for the SNS
                           Project was based on the need for neutron-scattering experiments to
                           be conducted in a leading-edge user facility. It now appears that the
                           total cost for providing the complete facility will be greater than
                           $1.4 billion. The General Accounting Office's report on the National
                           Ignition Facility (GAO/REC-00-141, August 2000), found that
                           project management was aware that the National Ignition Facility
                           (NIF) would cost more than planned, but did not fully inform
                           Congress. We believe it is important for the Department to apply the
                           lessons learned from the NIF to the SNS Project. Other related OIG
                           and General Accounting Office reviews are presented in Appendix 2
                           of this report.

Delivery of Leading-Edge   As a result of the scope reductions made to the project at this early
Facility Is Questionable   stage, the facility will not deliver all of the intended leading-edge
                           user facilities and capabilities nor cover all areas of science
                           anticipated to meet the needs of the scientific community at the end
                           of the construction project. Specifically, the facility will not be
                           equipped to perform some of the experiments originally planned
                           because the instruments needed to perform the experiments will not

Page 10                                                                       Details of Finding
                  be completed on time. Additionally, the reliability of the SNS
                  facility could be jeopardized if one of the critical spare parts deleted
                  from the project is needed to replace a part that fails, or if repairs are
                  needed for the linear accelerator cryomodules and the equipment
                  required to make the repairs is not available.

                  Management did not agree with our conclusion regarding delivery of
                  a leading-edge facility. Specifically, management contended that the
                  SNS facility was enhanced and would provide more science than
                  originally planned. We recognize that certain aspects of the SNS
                  Project are exceeding requirements; however, the upgrades were
                  added at the expense of some of the intended deliverables such as
                  instruments, completed user facilities, and critical spare parts and
                  equipment.

                  Finally, deferring the installation of research instruments, completion
                  of the Central Laboratory and Office Building, and procurement of
                  spare parts to the operations phase in order to stay within $1.4 billion
                  would place a strain on the operations budget, and could violate
                  Federal and Departmental restrictions on the use of appropriated
                  funds. United States Code Title 31 Section 1301 states that
                  appropriated funds can only be used for their originally intended
                  purpose. Also, Department of Energy Guide 430.1-1 prohibits the
                  use of post-construction operating funds to finish line item
                  construction projects.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office:

                        1. Adjust the baseline for the SNS Project to reflect the total
                           project cost for providing:

                                a. State-of-the-art instruments to cover all of the
                                   initially planned areas of science;
                                b. Completed user facilities;
                                c. Spare parts and equipment; and,
                                d. Facility enhancements.

                          2. Use contingency funds only for unforeseen and
                             unpredictable conditions or uncertainties, and not to
                             enhance project capabilities or to adjust for known errors
                             in cost estimates.




Page 11                                            Recommendations and Comments
                             3. Maintain the contingency fund at an adequate level
                                without jeopardizing the project's technical requirements.

                             4. Ensure that the project delivers approved project
                                requirements on schedule as well as within cost.

MANAGEMENT REACTION   Management disagreed with the basis for the report and the report's
                      conclusions. Also, management non-concurred with the first
                      recommendation and concurred with the other three
                      recommendations, stating that the recommendations merely required
                      following accepted project management practices, to which they
                      believed they already adhered. Their initial comments, organized by
                      recommendation, are as follows:

                      Recommendation 1: The current SNS baseline already meets, and
                      generally exceeds, the minimum science mission requirements and
                      the commitments made to Congress and Department management
                      when the project was approved. The Department will ensure that
                      future Project Data Sheets appropriately describe expectations for
                      project design and performance. Additionally, if a baseline change is
                      required, the Office of Science will request a Departmental decision
                      from the Deputy Secretary.

                      Recommendation 2: Management has not and will not use
                      contingency funds to enhance project capabilities beyond the scope
                      approved by the Secretary of Energy in the SNS Project Execution
                      Plan and described in the SNS Project Data Sheet.

                      Recommendation 3: The project currently has an adequate
                      contingency level and will continue to do so.

                      Recommendation 4: The project is on track to deliver a facility that
                      meets approved project requirements on schedule as well as within
                      cost and will continue to do so.

                      Subsequent to the exit conference, management submitted an
                      additional response to the draft report, and requested that it, along
                      with their initial response, be included as appendices to the report.
                      We have incorporated management's initial response throughout the
                      report. Management's additional response and auditor comments are
                      contained in Appendices 3 and 4.




Page 12                                              Recommendations and Comments
AUDITOR COMMENTS   Management's reaction was not responsive to the audit
                   recommendations. Management did not indicate that any steps would
                   be taken to address the audit concerns. Our initial comments, organized
                   by recommendation, are as follows:

                   Recommendation 1: We do not agree that the SNS Project is on track
                   to meet the approved project requirements. Not all of the instruments,
                   user facilities, critical spare parts and equipment will be provided in
                   June 2006. Also, as stated previously, we believe the current Project
                   Data Sheet is inconsistent with the Office of Science's own findings
                   regarding the acceptability of scientific instrumentation and user
                   facilities.

                   Recommendation 2: We determined that contingency funds were used
                   to increase the capabilities of the linear accelerator, ring, and target
                   system. This, in turn, resulted in reductions in instrument capabilities
                   and number, user facilities, and critical spare parts and equipment. We
                   agree that management should deliver maximum scientific performance
                   within the approved budget. However, contingency funds should not be
                   used to enhance parts of the facility, or to adjust for known errors in
                   cost estimates, at the expense of other project areas.

                   Recommendation 3: We acknowledge that the contingency level is
                   considered adequate at this time. However, this level was obtained by
                   eliminating instruments, user facilities, and critical spare parts and
                   equipment.

                   Recommendation 4: We do not agree that the SNS Project is on track
                   to meet all of the approved project requirements. The project will not
                   provide instruments to address the initially planned areas of science,
                   complete user facilities, and critical spare parts and equipment by June
                   2006.




Page 13                                              Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from April 2, 2001, to August 3, 2001, at the
              Oak Ridge Operations Office (Operations Office) and the SNS Project
              Office in Oak Ridge, Tennessee. The scope of the audit included SNS
              Project activities from October 1994 through July 2001.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Identified the SNS Project's technical scope, cost, and schedule;

                  •   Evaluated the status of the technical scope, cost, and schedule;

                  •   Reviewed Federal and Departmental regulations governing
                      project management;

                  •   Examined SNS Project documentation;

                  •   Reviewed baseline changes;

                  •   Analyzed the use of the contingency fund; and,

                  •   Discussed SNS Project activities with Department and
                      contractor personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              audit included reviews of Operations Office and SNS Project Office
              project management activities. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. We did not conduct a
              reliability assessment of computer-processed data because only a very
              limited amount of computer-processed data was used during the audit.
              As part of our review, we evaluated the Operations Office's
              expectations and performance measures for the SNS Project. We
              determined that the Operations Office established performance
              measures for the SNS Project in accordance with the Government
              Performance and Results Act of 1993.

              We held an exit conference with the Director, Office of Basic Energy
              Sciences, on October 25, 2001.




Page 14                                                    Scope and Methodology
Appendix 2

Related Office of       This review concerned the progress of the SNS Project regarding
Inspector General and   technical scope, cost, and schedule. Prior Office of Inspector General
General Accounting      and General Accounting Office reviews related to the SNS Project and
Office Reviews          other large-scale science projects include those listed below:

                        Audit of the Management of the Spallation Neutron Source Project,
                        (ER-L-00-04, May 2000). The SNS Project had addressed the
                        results of selected prior audits and reviews and had closed
                        93 percent of the recommendations.

                        Laboratory Research: State of Tennessee Exempts DOE's Spallation
                        Neutron Source Project From Sales and Use Taxes, (GAO/RCED-
                        00-99R, March 2000). The SNS Project was exempted from all
                        sales and use taxes imposed by the State of Tennessee. As a result,
                        it would cost no more, from a sales and use tax perspective, to
                        construct the SNS Project in Tennessee than at any of the other
                        collaborating laboratories.

                        Laboratory Research: Sales & Use Tax Costs to Build DOE's
                        Spallation Neutron Source Project, (GAO/RCED-00-33R,
                        November 1999). The cost of sales and use taxes to build the
                        project in Tennessee would be more than if the project were built in
                        New York, where virtually no sales and use taxes would be
                        incurred.

                        Challenges Exist in Managing the Spallation Neutron Source
                        Project, (GAO/T-RCED-99-103, March 1999). Concerns were
                        raised about SNS Project leadership, cost scheduling and the
                        Department's project management structure. Coupled with the
                        Department's history of not successfully completing large projects
                        on time and within budget, the SNS Project was deemed a
                        significant management challenge and continued close oversight
                        was suggested.

                        Summary Audit Report on Lessons Learned from the
                        Superconducting Super Collider Project, (DOE/IG-0389, April
                        1996). Instruments for a new facility are difficult to estimate due to
                        rapidly evolving technology. Therefore, a phased approach to
                        baselining instruments was recommended. Specifically, the facility
                        should be baselined first with an allowance for instruments.
                        Scientific instrumentation costs should not be baselined until later
                        when better information is available.




Page 15                                                                        Related Reviews
Appendix 3

                              Additional Management and Auditor Comments

The Acting Director, Office of Science, provided additional comments to the audit report on October 29,
2001. A summary of management comments and auditor responses follow. Management's response is
included in its entirety in Appendix 4.

Management asserts that the audit is seriously flawed because it fails to audit against the SNS Project
Execution Plan and the Project Data Sheets. Management contends that the Project Execution Plan and
the annual submission to Congress represent the internal control document and the external reporting
document for the SNS Project.

We used the SNS Project Execution Plans as well as the Project Data Sheets as criteria in our audit.
Further, as stated in the report, the SNS Conceptual Design Report was part of the basis for baseline
approval in December 1997. The SNS Conceptual Design Report is referred to in the Project Execution
Plan. Our report points out that the SNS Project baseline included certain deliverables that were reduced in
April 2001, due to budget constraints. The report also includes reference to management's submittal of the
Project Data Sheet that stated fewer than ten instruments would be provided with no sacrifice in scientific
capability. However, as noted in our report, we believe that the Project Data Sheet should more realistically
reflect the current plan for the project. We revised the report to note that the Project Execution Plan defines
the specific requirements that form the project baseline.

Management stated that the audit report references statements from a variety of documents, some of which
were never approved by the Department, were superceded and were merely advisory. Management
contended that some of the statements in the report were simply inaccurate. The report fails to convey to
the reader how, why, and when important decisions were made to address the evolution in technology
available for incorporation into the SNS Project and in user needs. The cost related to the issues raised in
the report is at most a few percent of the total project cost and is inconsistent with the sweeping
generalizations in the Conclusions and Observations section of the report's Overview.

First, the reviews were approved by the Department and contain the statements placed in the report.
Management cites the semiannual project management reviews as merely advisory while at the same time
uses them to support its statement that the SNS Project is meeting all technical, cost, and schedule
requirements. A detailed response to each of management's concerns about the reviews is provided in this
appendix.

Second, audit evidence contradicts management's statement that they approached the project to make
important decisions to address the evolution in technology. The evidence shows that facility enhancements
were made by using the contingency fund. Later, when the balance of the contingency fund was
questioned, the Department reduced the technical scope of the project to provide fewer instruments, leave
some of the user facilities unfinished, and eliminate spare parts. Further, evolution in technology did not
drive the decisions concerning the instruments. In fact, the current SNS Project Director wrote a
memorandum to the OIG in June 2001 that states "the overall project cost constraints led to a decision to
reduce the instrument budget in the fall of 2000."


Page 16                                                  Additional Management and Auditor Comments
Third, the cost of the issues raised in our report is not the point of the audit report and is not used to support
our overall conclusion. Our point is that the July 2001 baseline did not provide for instruments to address
the initially planned areas of science, complete user facilities, and critical spare parts to be available at the
end of the construction project. This happened because the Department chose to reduce the project's
technical scope in order to meet the approved budget rather than ask Congress for additional funding.

Management contends that the SNS Project is meeting or exceeding all technical, cost, and schedule
requirements. Management cites the May 2001 Office of Science review as evidence that "the Project was
found to be on track and well positioned to meet its technical, cost, and schedule objectives."

Our audit showed that as of July 2001, the SNS Project's technical scope was reduced in order to meet the
cost and schedule requirements. Thus, while cost and schedule milestones may be met in a technical sense,
the project's scope, as currently envisioned, will be inconsistent with the Department's original
commitment. Further, the May 2001 review stated that "overall, the Committee judged the SNS project is
making satisfactory progress and should be able to meet its Level 0 Baseline objectives: Total Project Cost
of $1,411.7 million; project completion date of June 2006; and greater than or equal to 1 megawatt proton
beam power on target." It is important to note that the review's comment addresses the Level 0 Baseline
deliverables. The review also commented on areas of concern in the project. For example, the reviewers
concluded that the instruments in the current baseline will be barely acceptable for user operation in their
present configuration, and that the elimination of user facilities might prove to be an unacceptable loss of
functionality for the SNS facility.

Management stated that the current scope of the SNS Project substantially exceeds the commitments made
when the baseline was approved. Management cited the accelerator design, more space for staff and users,
target system, and instrument performance as examples of improved deliverables. The SNS facility will be
the world's best neutron scattering facility by a substantial margin. Management further stated that
changes to the project were made in partnership with the user community, including Congress. Stretch
goals along the way were deemed not achievable and difficult decisions had to be made; however, all the
customers and stakeholders were involved in the process.

We recognize that certain aspects of the SNS Project are exceeding requirements; however, the upgrades
were added at the expense of basic deliverables such as instruments, completed user facilities, and critical
spare parts and equipment. Also, the additional space for staff and users was added because, as noted in our
report, the initial estimate for user facilities was understated. Our report states that the June 1997 Office of
Energy Research review determined that the amount of space planned for user facilities may be inadequate.
A further study resulted in approximately 100,000 square feet of space being added to the planned facility.
However, project costs were not increased to account for this added space. Also, instrument performance
was always intended to be delivered at the state-of-the-art level. Specifically, project funding included the
estimated costs to build an initial suite of ten instruments and the associated research and development to
design state-of-the-art components.




Page 17                                                    Additional Management and Auditor Comments
We recognize the value of this facility to the Department and we agree that once completed as initially
promised, the SNS facility may be the best in the world. However, our concern is that as a result of the
scope reductions made to the project at this early stage, the facility will not deliver all of the intended
leading-edge user facilities and capabilities nor cover all areas of science anticipated to meet the needs of
the scientific user community at the end of the construction project. Specifically, the facility will not be
equipped to perform some of the experiments originally planned because the instruments needed to perform
the experiments will not be completed on time. Finally, the reliability of the facility could be jeopardized if
one of the critical spare parts deleted from the project is needed to replace a part that fails.

Congress should be fully informed of the status of the project. Specifically, we believe that the current
Project Data Sheet should more realistically reflect the current plan for the project. As stated in the report,
the Project Data Sheet does not include information which we believe to be critically important, such as
only five instruments are currently funded and only three will be installed by June 2006. Nor does it state
that operating funds will be used to install the other two instruments in lieu of project funds. The Project
Data Sheet is substantively inconsistent with the Office of Science's own report which states that the
instruments will be barely acceptable for user operation and will span many, but not all, of the scientific
areas originally addressed.

Further, our review disclosed that, while management obtained input from the user community in selecting
the five instruments to be provided, the decision to provide only five instruments was based on budgetary
constraints—not advice from the scientific user community. The Office of Science October 2000 and May
2001 reviews support this conclusion. In particular, the reviews state that due to budget constraints, project
requirements were revised to require only five instruments to be funded, three of which would be installed.
The Office of Science recommended that management find savings throughout the project to restore the full
scientific scope of ten best-in-class instruments to the extent possible.

Overall, providing instruments to address the initially planned areas of science, completed user facilities,
and critical spare parts at the end of the construction project are not considered "stretch goals." Rather, as
noted by the Deputy Secretary's memorandum dated September 19, 2001, the Department should be held
accountable for delivering projects within the full scope that was proposed to Congress.

Management's most serious concern with the report is that it implies that increasing the total project cost is
the correct response to the circumstances. Management stated that this is in direct contradiction of
Secretarial policy that major projects should be managed to meet cost, schedule, and mission objectives.

We agree that major projects should be managed to meet cost, schedule, and mission objectives within the
full scope that was proposed to Congress. Our report points out that the total cost of providing the
completed facility will be greater than $1.4 billion. Therefore, we recommended that the total project cost
be revised to reflect the cost of the instruments to cover all of the initially planned areas of science,
completed user facilities, spare parts and equipment, and facility enhancements.




Page 18                                                   Additional Management and Auditor Comments
Management was concerned about the report's statements regarding the use of contingency funds.
Management contended that the report states that contingency funds should not be used for project
enhancements, including investments that facilitate future upgrades, and that this implies that improving
project performance within the approved budget is not permitted.

The report's recommendation regarding the use of contingency funds must be put in the context in which
the funds were being used. For example, the enhancements, which totaled at least $54.7 million, were made
from the contingency fund, which in turn, resulted in reductions in instrument capabilities, descoped user
facilities, and elimination of spare parts and equipment. The Department could have adjusted the total
project cost when it made enhancements to the facility and when it determined that amounts estimated for
instruments and user facilities were understated. Departmental project management guidance states that the
baseline can be revised for bona fide changes such as increases in capability of a facility. The guidance also
states that the contingency fund should not be used in lieu of making an accurate assessment of expected
costs. In this case, the technical scope of the project was reduced in lieu of asking for additional funding.

Finally, management stated that cost challenges must first be managed by keeping increases to the
minimum while still meeting requirements. Unavoidable increases in cost would be managed by looking
for offsets in areas of lower priority or use of contingency. An increase in total project cost would be
warranted only if these avenues were exhausted or could not be pursued without harm to project
performance. Management closed by stating that it was their responsibility to optimize scientific
performance within the approved baseline and to do otherwise would not be consistent with responsible
stewardship of public funds.

We agree that cost challenges must be managed by keeping increases to a minimum while still meeting
requirements. However, parts of the SNS facility were enhanced at the expense of basic deliverables that
were part of the Department's commitment. The descoping actions have rendered the instruments barely
acceptable for user operation and will span many, but not all, of the scientific areas originally addressed.
The lack of certain user facilities may pose an unacceptable loss of functionality. The Department should
deliver the SNS Project within the full scope that was proposed to Congress, and to do otherwise would be
inconsistent with responsible stewardship of public funds.

Management also expressed concern about the following statements in the report. Our response to each of
their concerns follows.

1. The SNS Project is within cost and schedule.

   Audit Report
   Page 2 states "The SNS Project was not within technical scope, cost and schedule."

   Management Comment
   While the report contains many criticisms relating to technical scope, there is no basis for the
   conclusion that SNS is not within cost and schedule. In fact, SNS is on schedule and is currently
   projected to be complete several months early. The cost performance index is currently 1.01 and the


Page 19                                                 Additional Management and Auditor Comments
   contingency level is over 20 percent of remaining commitments. The May 2001 DOE review concluded
   that "the project was found to be on track and well positioned to meet its technical, cost and schedule
   objectives." Based on this conclusion, the cost performance index, the quarterly reviews, monthly
   reports, and weekly teleconferences with project management, the DOE management concludes that the
   project is within technical scope, cost, and schedule.

   Auditor Response
   The audit disclosed that the July 2001 baseline for the SNS Project did not provide for several of the
   key scientific and logistical features that were included in the initial baseline. Thus, while cost and
   schedule milestones may be met in a technical sense, the project's scope, as currently envisioned, will be
   inconsistent with the Department's original commitment. The July 2001 baseline did not provide for
   instruments to address the initially planned areas of science, complete user facilities, and critical spare
   parts to be available at the end of the construction project. In essence, the project's technical scope was
   reduced to allow the cost and schedule components to be met.

   Further, although the May 2001 Office of Science review stated that "the project was found to be on
   track and well positioned to meet its technical, cost, and schedule objectives," the overall conclusion
   was referring to the Level 0 Baseline deliverable of 1 megawatt of proton beam power on target, for
   $1.4 billion in June 2006. The review also raised several concerns. Specifically, the review states, "The
   Committee noted that the scope of the first three instruments has been downgraded to meet budgetary
   constraints. Although this is recoverable at a later stage, the Committee is concerned that, in their
   present configuration, these instruments will be barely acceptable for user operation. Resources should
   be redirected as necessary to bring the powder diffractometer to a state of design comparable with that
   of the other four instruments. The goal should be to have all five instruments ready for neutrons at, or
   shortly after, the SNS Operational Readiness Review." The review also states "…some of the scope
   reduction items may resurface on the project as unacceptable loss of functionality (i.e., auditorium,
   cafeteria, furniture, and casework) when these issues are revisited at a later date."

2. The 1997 initial estimate for instruments was not understated.

   Audit Report
   Page 7 states "A review of the estimate performed by the Department's Office of Energy Research in
   June 1997 determined that the instruments would cost an additional $40 million."

   Management Comment
   The Department's review of June 1997 did not determine that the instruments would cost an additional
   $40 million. In the June 1997 DOE Review (a comprehensive review of the SNS Conceptual Design),
   the committee's report stated:

       •   "They [the SNS Project] have developed a reference set of spectrometers adequate for costing
           purposes and have presented a credible cost estimate."
       •   "This set of instruments was chosen in order to allow costs to be estimated and should not be
           viewed as the set that will actually be built by the project."


Page 20                                                 Additional Management and Auditor Comments
      • "Our conclusion is that the budget requested for construction of 10 instruments on day 1
        ($45.6 million) is adequate and that sufficient contingency has been included."

    In its own estimate of project costs, the committee's report did not increase instrument construction
    cost beyond the level estimated by the project. That is, they agreed with the $45.6 million figure. DOE
    accepted the conclusions of this review, which were valid at the time they were made.

   Auditor Response
   The review does state that the budget requested for construction of an initial set of instruments is
   adequate and that the instruments should not be viewed as the set that will actually be built. However, it
   also states "…the committee strongly recommends a substantial increase in the budget for
   instrumentation R&D, from less than $10 million to about $50 million." The report was clarified to
   note that we included both construction and research and development costs for the instruments.

3. Project plans were always based on phased installation of instruments, not on delivery of all planned
   instruments at the time of Critical Decision 4.

   Audit Report
   Page 6 states that the ten instruments envisaged in the SNS Conceptual Design Report "were to be
   installed and ready for commissioning at the time the proton beam is turned on in June 2006."

   Management Comment
   The plan for instrument installation has always involved phased installation and commissioning due to
   the logistics of installation in an eighteen-month window with two overhead cranes. The definition of
   the Instrument Systems Complete Project Acceptance Test contained in Appendix B of the Project
   Execution Plan in place at the time ten instruments were in the baseline (Project Execution Plan
   Appendix B, October 1, 1999) states: "Milestone is defined as the completion of the ORR [Operational
   Readiness Review] for 5 installed instruments and the confirmation of the completed procurement of the
   remaining 5 instruments." This milestone has since been updated through the formal change control
   process to reflect the current plans for instruments. Had the audit been done against the established
   DOE approved baselines this error in the OIG report would not have occurred. The change control
   process is well defined, and the Project Execution Plan is changed as warranted when baselines
   change.

   Auditor Response
   The SNS Conceptual Design Report was part of the basis for the initial baseline approval. According to
   the SNS Conceptual Design Report, "operations will begin with construction of the target operating at
   60 Hz and ten neutron scattering instruments. These first ten instruments will span the types of science
   anticipated to be most important for this facility. They are expected to be installed and ready for
   commissioning at the time the source turns on and should be ready to begin a scientific program within
   a matter of months after that. It is expected that additional instruments will be installed at a rate of one
   to two per year after that." We agree that the Project Execution Plan dated October 1, 1999, reduced
   the commitment to five instruments installed and five procured. This milestone has since been reduced


Page 21                                                  Additional Management and Auditor Comments
   again to require the procurement of five instruments, only three of which will be installed. However, we
   do not agree with management's contention that these reductions are not a sacrifice in scientific
   capability.

4. Instrument beam optics have not been deferred.

   Audit Report
   Page 3 of the report states "Also, the three instruments that will be installed will lack certain
   capabilities because management decided to defer the procurement of analyzer crystals, detectors, and
   optics."

   Management Comment
   Neutron beam optics have not been deferred in the referenced instruments because doing so would
   adversely impact beam intensity (and hence, instrument performance).

   Auditor Response
   The report does not state that "neutron beam optics" had been deferred. The report refers to the deferral
   of the "polarizing optics" associated with the liquids reflectometer as reported to the OIG by the SNS
   Instrument Systems Senior Team Leader. The report was updated to use the specific term "polarizing
   optics."

5. Instrument scope has not been reduced to address potential cost growth in Conventional Facilities.

   Audit Report
   Page 1 of the report states that the "initial Title I cost estimate of $380 million for conventional
   facilities exceeded the baseline by approximately $80 million."

   Management Comment
   Early identification of potential cost increases allowed the project to address the cost drivers in facility
   design. The current project baseline for conventional facilities, which provides for all the required
   conventional facilities to support operation of the SNS, stands at $310.7 million. The modest cost
   growth since the fall of 2000 (approximately $7.2 M) was easily accommodated by using contingency
   and has not impacted funds available for instrumentation. The project has adjusted instrument scope to
   reflect the cost of Best-in-Class instruments and the overall budget for the project. This error is an
   example of the OIG auditing against preliminary and, in this case, invalid information. Some of the
   $80 million increase in conventional facilities had to do with over design, such as using stainless steel
   reinforcement bars in cases where carbon steel was adequate or bad design such as placing a utility
   building in a location that required long runs of utility lines or excessive wall thickness.

   Auditor Response
   The report does not state that the instrument scope had been reduced to address potential cost growth in
   conventional facilities. The report states "the instrument budget was reduced to about $79 million to
   make more funds available for the project's contingency fund" (See Report Page 7). Project


Page 22                                                  Additional Management and Auditor Comments
   documentation showed the initial conventional facilities Title I estimate was $380.2 million; however,
   the October 2000 baseline was only $300.3 million. The Department's Office of Science October 2000
   review noted that fact and raised concerns about the potential use of contingency. In December 2000,
   the reviewers stated that SNS management had developed a number of actions to address the potential
   cost growth. These included: returning the scientific instrument budget to near its conceptual design
   level; reducing the amount of office and laboratory space; and reducing the size and capabilities of
   several conventional facilities. Also, the SNS Instrument Systems Senior Team Leader reported in an
   SNS Project publication, dated Spring 2001, that "the funds removed from the instrument budget were
   placed in the project contingency fund. This was needed to raise the contingency to an acceptable
   amount in light of a higher than anticipated cost estimate for the conventional construction and
   recognition of the need for additional funds to support the buildup and training of SNS staff to operate
   the accelerator systems." Further, the SNS Project Director stated in a letter to the OIG dated June 13,
   2001, that ". . . overall project cost constraints led to a decision to reduce the instrument budget . . ."
   Accordingly, the reduction in instrument scope was driven by a need to increase contingency, partially
   due to potential conventional facility cost increases—not to accommodate state-of-the-art instruments.

6. Accelerator downtime for cryomodule repair can be minimized without having an onsite facility.

   Audit Report
   Page 5 states "equipment for a facility designed to maintain and repair the linear accelerator
   cryomodules was eliminated from the project's construction phase." Page 6 states, "while capabilities
   for maintenance and repair of the linear accelerator cryomodules will be available off-site, the facility
   is required to operate with minimal downtime due to the short duration of user visits. The downtime
   will not be minimal if equipment has to be sent off-site for maintenance and repair."

   Management Comment
   Downtime is not dictated by the location of the maintenance and repair facilities, but can best be
   minimized by having sufficient spares in place at SNS. The project has these spare components within
   its scope. During SNS operation, it is anticipated that some repair work will be done off-site, but it will
   not be on the critical path in determining downtime.

   Auditor Response
   The statement management is referring to concerns the lack of linear accelerator cryomodule
   maintenance and repair equipment—not spare parts. Project management reported that in the absence of
   the equipment, all cryomodules needing repair must be sent off-site. Accordingly, management stated
   that the turn around time on repairs would be longer than if the capabilities were available on-site.
   Project management also stated that in order to minimize downtime it was possible to bypass the
   affected cryomodule and run the linac at reduced power. However, management reported that some of
   the capabilities of the machine would be sacrificed. A review of the project change requests as of
   October 29, 2001, showed that the equipment had not been added back into the baseline. Further, we
   question the inclusion of the equipment in the original baseline if there was no effect on downtime.

7. The March 1999 internal assessment did not recommend increasing the instrument budget by
   $40 million.

Page 23                                                 Additional Management and Auditor Comments
   Audit Report
   Page 7 states "An internal assessment conducted in March 1999 also found that the instrument budget
   was too low and recommended increasing the instrument budget by $40 million."

   Management Comment
   The internal assessment referenced in the OIG report was one done by a new management team just
   before they took charge of the project in April 1999. It is not clear why the OIG is auditing against a
   document prepared by people who were not yet part of the project and which did not have then and
   never has had any standing within the project or DOE. Nevertheless, this assessment report, (April 13,
   1999) does not contain any mention of an instrument cost increase, much less recommendation to add
   $40 million to the project instrument budget. The new management team merely pledged that "In full
   operation the SNS facility will meet or exceed its performance goals and deliver pulsed neutron beams
   of unprecedented power and reliability to a world-class instrument suite." In July 1999, the new project
   team did propose, and DOE accepted a Level 1 (SC level) baseline that included an instrument budget
   (exclusive of R&D) of $97.3 million that would provide for "up to eleven instruments" of world-class
   caliber yet to be identified or designed. The $40 million increase was taken from cost savings found in
   other areas of the project. Incidentally, they did not find it necessary to propose a substantial increase
   to the instrument R&D budget. The $40 million increase eventually had to be relaxed to a $15 million
   increase due to competing demands elsewhere in the project. At this stage, there was no specific
   technical scope tied to this money since the instruments had yet to be designed.

   Auditor Response
   The internal assessment, dated March 25, 1999, was prepared by an internal representative (SNS
   Instrument Systems Senior Team Leader) and an external representative (National Institute of Science
   and Technology). This assessment did appear to have significant standing within the project and DOE
   considering the fact that SNS project management used the assessment as the basis to increase the
   instrument construction budget to $97.3 million. The internal assessment stated that the original
   instrument budget of $45.6 million could build the instrument set referred to in the SNS Conceptual
   Design Report. However, the report continued that the instruments would be far from state-of-the-art,
   and so would not make optimal use of the neutrons produced by SNS. The internal assessment stated
   that rough estimates indicated "an additional $40 million plus contingency would be required to
   optimize this particular set of instruments." The audit disclosed that the $40 million increase eventually
   had to be reduced to increase project contingency. We disagree with management's assertion that no
   technical scope was tied to that money. Instrument concepts had already been identified, in conjunction
   with the user community, to address the initially planned areas of science.

8. An auditorium and cafeteria were not part of the initial project requirements.

   Audit Report
   Page 6 states, in reference to the SNS Conceptual Design Report, "Project requirements also include
   offices, laboratories, conference rooms, an auditorium, a cafeteria, and …"




Page 24                                                Additional Management and Auditor Comments
   Management Comment
   The SNS Conceptual Design Report did not go into the level of detail to specify a requirement for an
   auditorium or a cafeteria; they are not even mentioned. Although it was never approved by DOE as a
   baseline document, the SNS Project Design Manual (1998) explicitly stated that an auditorium and
   cafeteria were outside the scope of the SNS Project.

   Auditor Response
   The project requirements for an auditorium and a cafeteria were not made in reference to the SNS
   Conceptual Design Report. Those facilities were listed as user requirements in the SNS Project Design
   Manual, which was derived from the SNS Conceptual Design Report. The SNS Project Design Manual
   was reported as the design basis for the SNS Project. Appendix B of the Project Execution Plan, dated
   October 7, 1998, stated that the SNS Project Design Manual defined the facility requirements, design
   concepts, construction plans, and operational capabilities to be provided upon completion of the facility.
   The SNS Project Design Manual was listed as a document approved for use project-wide until
   September 2001. According to the SNS Project Design Manual, the SNS Project was relying on the
   Joint Institute of Neutron Sciences (funded by the State of Tennessee) to provide these facilities. SNS
   project management added these facilities to the SNS Project baseline in April 2000; however, due to
   the upgrades in other areas of the project, the scope of those facilities has been reduced. The
   Department's May 2001 Office of Science review found that the elimination of facilities such as the
   auditorium, cafeteria, furniture, and casework might prove to be an unacceptable loss of functionality.
   The report was revised to include reference to the SNS Project Design Manual.

9. The Project is in compliance with Departmental policy on spare parts.

   Audit Report
   Page 2 states that the July 2001 project baseline "does not provide…critical spare parts to be available
   at the end of the construction project." Page 6 states "Departmental policy states that an initial
   complement of spare parts is to be included in the total project cost."

   Management Comment
   The current project baseline does contain a budget for an initial complement of spares. The exact
   amount will evolve as the design is completed and the detailed needs are identified, but the spares
   budget currently stands at $6 million. There were no "critical" spares identified in the OIG report that
   are not contained in the project baseline.

   Auditor Response
   The report only refers to the elimination of target system spare parts, which were removed from the
   baseline in March 2001. According to project documentation and interviews with project management,
   some of those parts were considered "critical" to the operation of the facility due to a high schedule or
   technical risk. A review of the project change requests as of October 29, 2001, showed that the spare
   parts had not been added back into the baseline.




Page 25                                                Additional Management and Auditor Comments
10. The June 1997 DOE Review of the SNS Conceptual Design Report concluded that user facilities were
    generally adequate.

   Audit Report
   Page 8 states "The June 1997 Office of Energy Research Review determined that the amount of space
   planned for user facilities was inadequate."

   Management Comment
   At the least, this is a gross distortion of facts. The June 1997 Review found that space for the user
   facilities was reasonably adequate.

   In regard to the conventional facilities, the June 1997 DOE Review report stated: "The facilities and
   services seem to be adequate for the SNS based on the conceptual requirements for the proton source,
   linac, accumulator ring, target, research instruments, and support facilities."

   In regard to the experiment systems, the June 1997 DOE Review report stated: "As discussed
   elsewhere, the committee recommends a relatively small addition of laboratory space, which likely adds
   about $1 million to conventional facility cost [of roughly $300 million]."

   Auditor Response
   Although the June 1997 review did make the statements mentioned by management, they also stated
   that "While the instrument hall appears to be of sufficient size, the committee is concerned that office
   and lab space may have been seriously underestimated." The reviewers also raised concerns about the
   amount of space available for offices, instrument storage, long-term laboratory projects, ancillary
   equipment development, off-line testing, and maintenance. The March 1999 internal assessment also
   reported that the amount of office and lab space may be seriously inadequate and recommended that the
   amount of office, laboratory, and storage space available to both visiting researchers and SNS staff be
   increased. The audit report was revised to state that the space "may be" inadequate. Also, as stated in
   our report, a further study resulted in approximately 100,000 square feet of space being added to the
   planned facility.

11. The Office of Science has always been (and remains) committed to meeting the TPC.

   Audit Report
   The report makes a direct implication that DOE management deliberately understated the total project
   cost estimate. Page 9 states "In this case, management knew the total project cost was understated."
   On page 10, the report states "Department officials knew that the National Ignition Facility (NIF)
   would cost more than planned, but pushed the unrealistic figure in the belief that Congress would not
   fund the project at a higher cost. We believe that it is important for the Department to apply the lessons
   learned from the NIF to the SNS Project."




Page 26                                                 Additional Management and Auditor Comments
   Management Comment
   It is not clear why NIF is mentioned. This is not an audit of NIF. If the OIG insists on this statement
   with respect to NIF, it should be reviewed by NNSA, and NNSA should be allowed to comment. The
   implication with respect to the SNS is both groundless and offensive. Indeed, the actions taken by
   Project and DOE management to adjust the elements of the project scope to maximize the science
   capability within the TPC (and criticized by this report) are direct evidence of the commitment to cost
   control. However, as a matter of fact, we have involved NIF management in the SNS review process to
   learn what we can from NIF. Furthermore, Congress has imposed many tough requirements that have
   been met. See, for example, the requirements in the House Report (Report 106-253, pp 113-114) that
   accompanied the FY 2000 Energy and Water Development Appropriations Act. This project has been
   an open book from the start. GAO, OMB, OSTP have all been observers in the DOE review process.
   Congress was briefed regularly by DOE and the contractor. The OIG also ignores that the TPC has
   been increased three times over the original contractor CDR estimate. Each such increase was based
   on sound analysis by DOE management, proposed and accepted by OMB, submitted to Congress in the
   President's budget, and accepted by Congress in its annual appropriations bills.

   Auditor Response
   NIF is mentioned in the report to show a trend in the Department's project management philosophy.
   Although we agree that management should deliver maximum scientific performance within the
   approved budget using techniques such as value engineering, our review showed that the enhancements
   and current contingency level were obtained at the expense of the project's technical requirements.
   Department guidance allows for adjusting the baseline for bona fide changes. However, in this case, the
   total project cost was not adjusted to reflect the enhancements.

   We are aware that the total project cost has increased over the original SNS Conceptual Design Report
   amount three times. The first increase was due to project management's implementation of some of the
   June 1997 Department of Energy Research SNS Conceptual Design Review recommendations. The
   other two increases extended the schedule due to funding shortfalls. Thus, none of the increases were
   due to analyses performed on the effects of making project enhancements.

12. The SNS has always managed contingency properly.

   Audit Report
   On page 9, the report makes the direct implication that DOE management deliberately mismanaged
   contingency. "Departmental guidance states that contingency funds are not to be used as a "slush fund"
   and should not be used to avoid making an accurate assessment of expected costs."

   Management Comment
   This implication is both groundless and offensive. The Project has a contingency management process
   that is defined in the Project Execution Plan and was used to govern the baseline changes referenced in
   the report. Again, the OIG fails to use the approved baseline documents and processes in their audit
   choosing instead to bolster their case with inflammatory language that has no basis in fact.




Page 27                                               Additional Management and Auditor Comments
  Auditor Response
  The report's comments regarding the use of contingency funds must be put in the context in which the
  funds were being used. For example, the enhancements, which totaled at least $54.7 million, were made
  from the contingency fund, which in turn, resulted in reductions in instrument capabilities, descoped
  user facilities, and elimination of spare parts and equipment. The Department could have adjusted the
  total project cost when it made enhancements to the facility and when it determined that amounts
  estimated for instruments and user facilities were understated. Departmental project management
  guidance states that the baseline can be revised for bona fide changes such as increases in capability of a
  facility. The guidance also states that the contingency fund should not be used in lieu of making an
  accurate assessment of expected costs. In this case, the technical scope of the project was reduced in
  lieu of asking for additional funding. Finally, Department guidance cautioned against using the
  contingency fund as a "slush fund." Use of the Department's guidance in our report was not meant to be
  inflammatory.




Page 28                                                Additional Management and Auditor Comments
Appendix 4




Page 29      Management Response
                                                                Summary of Management Response1

Because of our strong disagreement with the findings and recommendations from this audit, management has specifically requested that this response be
included as an appendix to the report.

The Audit Report “Progress of the Spallation Neutron Source Project” is seriously flawed, because it fails to audit against the SNS Project Execution Plan (PEP),
the document formally recognized by the Department to define and control the official Project baselines. The SNS Project Data Sheet, which is the budget
document submitted annually to Congress, summarizes the current budget status and addresses substantive changes in the project baselines that occur from year
to year. Thus, the PEP and the annual submission to Congress represent, respectively, the internal control document and the external reporting document for the
SNS Project.

In lieu of using these documents, the Report references statements and often fragments of statements abstracted from a variety of documents, some of which had
never been approved by the Department, some of which were long superceded, and some of which were merely advisory to the Department such as the reports of
the semiannual project management reviews. And some of the statements in the Report are simply incorrect.2 The result is a confusing and distorted picture of
the SNS Project, which fails to convey to the reader how, why, and when important decisions were made to address the evolution in technology available for
incorporation into the SNS Project and in user needs. Furthermore, the cost related to the issues raised in the Report is at most a few percent of the Total Project
Cost, which is inconsistent with the sweeping generalizations in the Conclusions and Observations section of the Report’s Overview.

The SNS Project is meeting or exceeding all technical, cost, and schedule requirements. This has been confirmed by numerous recent assessments performed by
the SNS Project, the Department staff, and external review committees. Indeed, the May 2001 “Lehman review”3 concluded that “the Project was found to be on
track and well positioned to meet its technical, cost, and schedule objectives.” The next such review, planned for November 6 – 8, 2001, will again examine the
project’s technical, cost, and schedule status. This review report should be available by early January 2002.

The current scope of the SNS Project substantially exceeds the initial commitments made when Critical Decision 2 (Baseline) was approved (December 23, 1997)
in a number of ways. Some of the more important of these are:

     •     The accelerator design is more robust and provides for higher beam power.
     •     The conventional facilities provides more space for staff and users.
     •     The target system provides more, higher performance neutron beamlines.
     •     The instrument performance significantly exceeds that in the Conceptual Design Report, due to improved instrument technology and better overall
           facility performance.

Because informed, thoughtful decisions were made all during the life of this project, the SNS facility will unquestionably be the world’s best neutron scattering
facility by a substantial margin. Already it is the envy of the international scientific community. All of the changes to the SNS Project were made in partnership
with the user community – the ultimate customer of this facility – and were communicated to other stakeholders (including the Congress) in a regular, open
manner. Sometimes stretch goals along the way were deemed not achievable, sometimes difficult decisions had to be made; however, all the customers and
stakeholders were involved throughout the process.

Perhaps the most serious concern with the IG Report is that it implies that increasing the Total Project Cost (TPC) is the correct response to all but a limited set of
possible circumstances. This is in direct contradiction of Secretarial policy that major Projects should be managed to meet cost, schedule, and mission objectives.
Furthermore, the IG Report’s statement that contingency funds should not be used for Project enhancements, including investments that facilitate future upgrades,
implies that improving Project performance within the approved budget (an accepted part of Value Engineering required by OMB Circular A-131) is not
permitted.

Cost challenges, such as those that arose in the fall of 2000, must first be managed by keeping increases to the minimum while still meeting requirements. This
was the main element of solving the difficulties relating to conventional facilities discussed in the report. Unavoidable increases in cost would then be managed
by looking for offsets in areas of lower priority or through the judicious use of contingency. An increase in TPC would be warranted only if these avenues were
exhausted or could not be pursued without harm to Project performance.

We believe it is our responsibility to optimize scientific performance within the approved baseline and to do otherwise would not be consistent with responsible
stewardship of public funds.




1
  The entire Management Response to the initial draft IG Report of August 9, 2001 is contained in Appendix B. This is the response referenced in numerous
places in the final IG Report. [The OIG has incorporated management’s initial response throughout the body of the report. Management’s additional response
and auditor comments are contained in Appendices 3 and 4].
2
  A compendium of inaccuracies follows this summary.
3
  A "Lehman review" is a comprehensive (technical, cost, schedule, and management) review periodically performed on all large Office of Science (SC) projects
by committees of independent experts organized by SC's Division of Construction Management Support and chaired by its Director, Daniel Lehman. These
experts are drawn from a wide variety of national laboratories, academia, foreign research institutions, and other Federal agencies. These experts provide counsel
to DOE management in their report. The review is used by DOE management to make decisions regarding the project in the context of all other responsibilities
and obligations.


Page 30                                                                                                                       Management Response
                                                                          Examples of
                                                           Inaccuracies in IG Report on SNS Project


1.   The SNS project is within cost and schedule.

IG Report
Page 2 states “The SNS Project was not within technical scope, cost and schedule.”

Fact
While the report contains many criticisms relating to technical scope, there is no basis for the conclusion that SNS is not within cost and schedule. In fact, SNS is
on schedule and is currently projected to be complete several months early. The cost performance index is currently 1.01 and the contingency level is over 20
percent of remaining commitments. The May 2001 DOE Review (“Lehman review”) report concluded that “the project was found to be on track and well
positioned to meet its technical, cost, and schedule objectives.” Based on this conclusion, the cost performance index, the quarterly reviews, monthly reports, and
weekly teleconferences with project management, the DOE management concludes that the project is within technical scope, cost, and schedule.

2.   The 1997 initial estimate for instruments was not understated.

IG Report
Page 7 states “A review of the estimate performed by the Department’s Office of Energy Research in June 1997 determined that the instruments would cost an
additional $40 million.”

Fact
The Department’s review of June 1997 did not determine that the instruments would cost an additional $40 million.

In the June 1997 DOE Review (a comprehensive review of the SNS Conceptual Design), the committee’s report stated:

•    “They [the SNS Project] have developed a reference set of spectrometers adequate for costing purposes and have presented a credible cost estimate.”
•    “This set of instruments was chosen in order to allow costs to be estimated and should not be viewed as the set that will actually be built by the project.”
•    “Our conclusion is that the budget requested for construction of 10 instruments on day 1 ($45.6 million) is adequate and that sufficient contingency has been
     included.”

In its own estimate of project costs, the committee’s report did not increase instrument construction cost beyond the level estimated by the project. That is, they
agreed with the $45.6 million figure. DOE accepted the conclusions of this review, which were valid at the time they were made.

3.   Project plans were always based on phased installation of instruments, not on delivery of all planned instruments at the time of Critical Decision 4.

IG Report
The report states that the ten instruments envisaged in the Conceptual Design Report “were to be installed and ready for commissioning at the time the proton
beam is turned on in June 2006”. (page 6)

Fact
The plan for instrument installation has always involved phased installation and commissioning due to the logistics of installation in an eighteen month window
with two overhead cranes. The definition of the Instrument Systems Complete Project Acceptance Test contained in Appendix B of the Project Execution Plan in
place at the time ten instruments were in the baseline (PEP Appendix B, October 1, 1999) states: “Milestone is defined as the completion of the ORR [Operational
Readiness Review] for 5 installed instruments and the confirmation of the completed procurement of the remaining 5 instruments.” This milestone has since been
updated through the formal change control process to reflect the current plans for instruments. Had the audit been done against the established DOE approved
baselines this error in the IG report would not have occurred. The change control process is well defined, and the PEP is changed as warranted when baselines
change.


4.   Instrument beam optics have not been deferred.

IG Report
The report states that “Also, the three instruments that will be installed will lack certain capabilities because management decided to defer the procurement of
analyzer crystals, detectors, and optics.” (page 3)

Fact
Neutron beam optics have not been deferred in the referenced instruments because doing so would adversely impact beam intensity (and, hence, instrument
performance).




Page 31                                                                                                                     Management Response
5.    Instrument scope has not been reduced to address potential cost growth in Conventional Facilities.

IG Report
The report states that “initial Title I cost estimate of $380 million for conventional facilities exceeded the baseline by approximately $80 million.” (page 1)

Fact
Early identification of potential cost increases allowed the project to address the cost drivers in facility design. The current project baseline for conventional
facilities, which provides for all the required conventional facilities to support operation of the SNS, stands at $310.7 million. The modest cost growth since the
fall of 2000 (approximately $7.2 M) was easily accommodated by using contingency and has not impacted funds available for instrumentation. The project has
adjusted instrument scope to reflect the cost of Best-in-Class instruments and the overall budget for the project. This error is an example of the IG auditing
against preliminary and, in this case, invalid information. Some of the $80 million increase in conventional facilities had to do with over design, such as using
stainless steel reinforcement bars in cases where carbon steel was adequate or bad design such as placing a utility building in location that required long runs of
utility lines or excessive wall thickness.

6.    Accelerator downtime for cryomodule repair can be minimized without having an onsite facility.

IG Report
Page 5 states “equipment for a facility designed to maintain and repair the linear accelerator cryomodules was eliminated from the project’s construction phase.”
Page 6 states “while capabilities for maintenance and repair of the linear accelerator cryomodules will be available off-site, the facility is required to operate with
minimal downtime due to the short duration of user visits. The downtime will not be minimal if equipment has to be sent off-site for maintenance and repair.”

Fact
Downtime is not dictated by the location of the maintenance and repair facilities, but can best be minimized by having sufficient spares in place at SNS. The
project has these spare components within its scope. During SNS operation, it is anticipated that some repair work will be done off-site, but it will not be on the
critical path in determining downtime.

7.    The March 1999 internal assessment did not recommend increasing the instrument budget by
     $40 million.

IG Report
Page 7 states “An internal assessment conducted in March 1999 also found that the instrument budget was too low and recommended increasing the instrument
budget by $40 million.”

Fact
The internal assessment referenced in the IG report was one done by a new management team led by David Moncton just before they took charge of the project in
April 1999. It is not clear why the IG is auditing against a document prepared by people who were not yet part of the project and which did not have then and
never has had any standing within the project or DOE. Nevertheless, this assessment report (April 13, 1999) does not contain any mention of an instrument cost
increase, much less recommendation to add $40 million to the project instrument budget. The new management team merely pledged that, “In full operation the
SNS facility will meet or exceed its performance goals and deliver pulsed neutron beams of unprecedented power and reliability to a world-class instrument
suite.”

In July 1999, the Moncton-led project team did propose, and DOE accepted a Level 1 (SC level) baseline that included an instrument budget (exclusive of R&D)
of $97.3 million that would provide for “up to eleven instruments” of world-class caliber yet to be identified or designed. The $40 million increase was taken
from cost savings found in other areas of the project. Incidentally, they did not find it necessary to propose a substantial increase to the instrument R&D budget.
The $40 million increase eventually had to be relaxed to a $15 million increase due to competing demands elsewhere in the project. At this stage, there was no
specific technical scope tied to this money since the instruments had yet to be designed.

8.    An auditorium and cafeteria were not part of the initial project requirements.

IG Report
Page 6 states, in reference to the SNS Project Conceptual Design, “Project requirements also include offices, laboratories, conference rooms, an auditorium, a
cafeteria, and …..”

Fact
The SNS Project Conceptual Design did not go into the level of detail to specify a requirement for an auditorium or a cafeteria; they are not even mentioned.
Although it was never approved by DOE as a baseline document, the SNS Project Design Manual (1998) explicitly stated that an auditorium and cafeteria were
outside the scope of the SNS project.




Page 32                                                                                                                       Management Response
9.   The Project is in compliance with Departmental policy on spare parts.

IG Report
Page 2 states that the July 2001 project baseline “does not provide … critical spare parts to be available at the end of the construction project”. Page 6 states
“Departmental policy states that an initial complement of spare parts is to be included in total project cost”.

Fact
The current project baseline does contain a budget for an initial complement of spares. The exact amount will evolve as the design is completed and the detailed
needs are identified, but the spares budget currently stands at $6 million. There were no “critical” spares identified in the IG report that are not contained in the
project baseline.


10. The June 1997 DOE Review of the SNS Conceptual Design concluded that user facilities were generally adequate.

IG Report
Page 8 states “The June 1997 Office of Energy Research Review determined that the amount of space planned for user facilities was inadequate.”

Fact
At the least, this is a gross distortion of facts. The June 1997 Review found that space for the user facilities was reasonably adequate.

In regard to the conventional facilities, the June 1997 DOE Review report stated: “The facilities and services seem to be adequate for the SNS based on the
conceptual requirements for the proton source, linac, accumulator ring, target, research instruments, and support facilities.”

In regard to the experiment systems, the June 1997 DOE Review report stated: “As discussed elsewhere, the committee recommends a relatively small addition of
laboratory space, which likely adds about $1 million to conventional facility cost [of roughly $300 million].”


11. The Office of Science has always been (and remains) committed to meeting the TPC.

IG Report
The report makes a direct implication that DOE management deliberately understated the total project cost estimate. Page 9 states “In this case, management
knew the total project cost was understated”. On page 10, the report states “Department officials knew that the National Ignition Facility (NIF) would cost more
than planned, but pushed the unrealistic figure in the belief that Congress would not fund the project at a higher cost. We believe that it is important for the
Department to apply the lessons learned from the NIF to the SNS Project.”

Fact
It is not clear why NIF is mentioned. This is not an audit of NIF. If the IG insists on this statement with respect to NIF, it should be reviewed by NNSA, and
NNSA should be allowed to comment. The implication with respect to the SNS is both groundless and offensive. Indeed, the actions taken by Project and DOE
management to adjust elements of the project scope to maximize the science capability within the TPC (and criticized by this report) are direct evidence of the
commitment to cost control. However, as a matter of fact, we have involved NIF management in the SNS review process to learn what we can from NIF.
Furthermore, Congress has imposed many tough requirement that have been met. See, for example, the requirements in the House Report (Report 106-253, pp
113-114) that accompanied the FY 2000 Energy and Water Development Appropriations Act. This project has been an open book from the start. GAO, OMB,
OSTP have all been observers in the Lehman review process. Congress was briefed regularly by DOE and by the contractor. The IG also ignores that the TPC
has been increased three times over the original contractor CDR estimate. Each such increase was based on sound analysis by DOE management, proposed and
accepted by OMB, submitted to Congress in the President’s budget, and accepted by Congress in its annual appropriations bills.


12. The SNS has always managed contingency properly.

IG Report
On page 9, the report makes the direct implication that DOE management deliberately mismanaged contingency. “Departmental guidance states that contingency
funds are not to be used as a “slush fund” and should not be used to avoid making an accurate assessment of expected costs.”

Fact
This implication is both groundless and offensive. The Project has a contingency management process that is defined in the PEP and was used to govern the
baseline changes referenced in the report. Again the IG fails to use the approved baseline documents and processes in their audit choosing instead to bolster their
case with inflammatory language that has no basis in fact.




Page 33                                                                                                                       Management Response
                                                                             IG Report No. : DOE/IG-0532

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
